APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order and Judgment in the United
States Court of Appeals for the Tenth
Circuit
(March 18, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Order Denying Plaintiff’s Motion to
Re-Open Case in the United States
District Court for the District of
Colorado
(May 4, 2018) . . . . . . . . . . . . . . . . App. 9
Appendix C Order and Judgment in the United
States Court of Appeals for the Tenth
Circuit
(October 13, 2015) . . . . . . . . . . . . App. 12
Appendix D Order Granting Defendants’ Motion to
Dismiss in the United States District
Court for the District of Colorado
(October 14, 2014) . . . . . . . . . . . . App. 17
Appendix E Final Judgment in the United States
District Court for the District of
Colorado
(October 15, 2014) . . . . . . . . . . . . App. 28
Appendix F Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Tenth Circuit
(April 15, 2019) . . . . . . . . . . . . . . App. 30
Appendix G U.S. Const. Amend. XIV, Sec. 1 . App. 32

ii
Appendix H Colorado Rev. Stat. § 38-38-101 . App. 33
Appendix I Colorado Rule 120 (with changes
tracked between 2016 and the 2018
amendment) . . . . . . . . . . . . . . . . App. 45
Appendix J Appendix to Rule 120 . . . . . . . . . App. 66

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 18-1208
(D.C. No. 1:14-CV-00784-CMA-BNB)
(D. Colo.)
[Filed March 18, 2019]
__________________________________________
VIVIAN L. RADER; STEVEN R. RADER,
)
Plaintiffs - Appellants,
)
)
v.
)
)
CITIBANK, N.A., as Successor Trustee to
)
U.S. Bank National Association as
)
Successor to Wachovia Bank National
)
Association as Trustee for the Certificate
)
holders of Mastr Alternative Loan Trust
)
2004-1 Mortgage Pass through Certificates )
Series 2004-1; MORTGAGE
)
ELECTRONIC REGISTRATION SYSTEMS, )
INC.; UBS WARBURG REAL ESTATE
)
SECURITIES, INC.; OCWEN LOAN
)
SERVICING, LLC, and Does 1-10,
)
Defendants - Appellees.
)
_________________________________________ )

App. 2
ORDER AND JUDGMENT*
Before BRISCOE, BACHARACH, and MORITZ,
Circuit Judges.
Vivian and Steven Rader defaulted on a promissory
note secured by a deed of trust on their Colorado home.
They filed separate lawsuits to try to avert and then to
undo foreclosure—first seeking declaratory and
injunctive relief to quiet title and to prevent
foreclosure, and later seeking to rescind the loan
documents due to alleged violations of the Truth in
Lending Act (“TILA”). In both cases, the district court
dismissed their claims under Federal Rule of Civil
Procedure 12(b)(6), and this court affirmed. Several
years later, the Raders again attempted to undo the
foreclosure proceedings, this time by filing a motion
under Federal Rule of Civil Procedure 60(d)(3), which
alleged fraud on the court and asked the district court
to reopen the first lawsuit and to vacate the final
judgment against them. That motion was denied.
Exercising jurisdiction under 28 U.S.C. § 1291, we
affirm.

*

After examining the briefs and appellate record, this panel has
determined unanimously that oral argument would not materially
assist in the determination of this appeal. See Fed. R. App. P.
34(a)(2); 10th Cir. R. 34.1(G). The case is therefore ordered
submitted without oral argument. This order and judgment is not
binding precedent, except under the doctrines of law of the case,
res judicata, and collateral estoppel. It may be cited, however, for
its persuasive value consistent with Fed. R. App. P. 32.1 and 10th
Cir. R. 32.1.

App. 3
Background
In 2003, Steven Rader borrowed $630,000 from
GreenPoint Mortgage Funding, Inc. The promissory
note was secured by a properly recorded deed of trust
on real property that Steven owned with his wife,
Vivian, at 47 Bennett Court, Pagosa Springs, Colorado.
In 2008, the Raders stopped making payments because
of alleged billing errors, causing the loan to go into
default.
U.S. Bank, which held the note at that time,
initiated foreclosure proceedings in Colorado state
court in 2012. U.S. Bank later moved to substitute
Citibank as the petitioner in the foreclosure action,
stating that it had transferred its interest in the note
to Citibank. At the foreclosure hearing in April 2014,
Citibank’s attorney appeared with the note, and the
state court granted the motion to substitute. The state
court also entered an order authorizing the sale of the
property.
Before the foreclosure sale occurred, the Raders
sued Citibank and other entities connected to the loan
in federal court in July 2014, seeking declaratory and
injunctive relief to quiet title and to prevent
foreclosure. They alleged that Citibank was not entitled
to enforce the note because U.S. Bank had not lawfully
transferred it to Citibank. Citibank filed a motion to
dismiss under Fed. R. Civ. P. 12(b)(6), which was
granted. The district court held that Citibank was the
possessor and holder of the promissory note, which was
endorsed in blank, and it did not matter how it became

App. 4
the holder under Colorado law;1 accordingly, Citibank
had standing to enforce the note and to pursue the
foreclosure. The district court entered final judgment
on October 15, 2014. This court affirmed the judgment
in Rader v. Citibank, N.A., 616 F. App’x 383, 384 (10th
Cir. 2015) (“Rader I”).
The property was sold at a foreclosure sale in
August 2015, but the Raders did not move out of the
property. Instead, they filed an action against Citibank
and Ocwen Loan Servicing, LLC (“Ocwen”), the loan
servicer, in late 2015, alleging TILA violations and
seeking to rescind the promissory note and deed of
trust. The district court found the rescission claim to be
untimely and dismissed it under Rule 12(b)(6). Again,
this court affirmed. See Rader v. Citibank N.A., 700 F.
App’x 817, 818 (10th Cir. 2017) (“Rader II”).

1

As the district court explained in the underlying order, a
promissory note is a negotiable instrument that is freely
assignable under Colorado law. Aplt. App. at 211 (citing Colo. Rev.
Stat. § 4-3-104). In keeping with this principle, the note here
provided: “I understand that the Lender may transfer this note.
The Lender or anyone who takes this note by transfer and who is
entitled to receive payments under this Note is called the ‘Note
Holder.’” Id. at 211 n.6.
Colorado law allows “a holder of evidence of a debt to foreclose
upon breach of the terms of the deed of trust.” Id. at 211. The term
“holder” includes a “person in possession of a negotiable
instrument evidencing a debt which has been . . . [e]ndorsed in
blank,” Colo. Rev. Stat. § 38-38-100.3(10)(c). An instrument
payable to an identified person or entity may become payable to its
bearer if it is endorsed in blank pursuant to Colo. Rev. Stat.
§§ 4-3-109(c) and -205(b). See In re Miller, 666 F.3d 1255, 1263
(10th Cir. 2012). A note with a blank endorsement, like the one
here, may be negotiated solely by transfer of possession. Id.

App. 5
Still, the Raders refused to leave the property. They
next filed a lawsuit in Colorado state court, which was
consolidated with an eviction proceeding. Within that
consolidated action, they deposed Katherine Ortwerth,
an Ocwen employee who appeared as Citibank’s
representative, in October 2017. Ms. Ortwerth was not
involved with the loan when U.S. Bank filed the motion
to substitute Citibank as the petitioner in the
foreclosure action; nevertheless, she opined that
Citibank’s substitution was erroneous because Ocwen’s
servicing notes still list U.S. Bank as the holder of the
note and Citibank never had an interest in the Raders’
loan.
In February 2018, the Raders filed a motion under
Rule 60(d)(3), asking the district court to reopen the
lawsuit and to vacate the judgment that was affirmed
in Rader I. Citing Ms. Ortwerth’s testimony, they
argued that Citibank perpetrated a fraud on the court
by misrepresenting it had lawfully succeeded to the
interest in the promissory note and the deed of trust.
The district court found that these assertions did not
meet the standard for fraud on the court and denied
the motion. The Raders filed this timely appeal and are
now before this court for the third time in four years.
Analysis
We review the denial of the Raders’ Rule 60(d)(3)
motion for an abuse of discretion. See United States v.
Buck, 281 F.3d 1336, 1342 (10th Cir. 2002).2 Under this
2

In Buck, we pronounced this standard in the context of a Rule
60(b)(6) motion seeking relief grounded in fraud on the court. 281
F.3d at 1341-42; see also Switzer v. Coan, 261 F.3d 985, 988 (10th

App. 6
standard, “a trial court’s decision will not be disturbed
unless the appellate court has a definite and firm
conviction that the lower court made a clear error of
judgment or exceeded the bounds of permissible choice
in the circumstances.” Moothart v. Bell, 21 F.3d 1499,
1504 (10th Cir. 1994) (internal quotation marks
omitted). A district court abuses its discretion “if it
base[s] its ruling on an erroneous view of the law or on
a clearly erroneous assessment of the evidence,” FDIC
v. United Pac. Ins. Co., 152 F.3d 1266, 1272 (10th Cir.
1998) (internal quotation marks omitted), or if it “fails
to consider the applicable legal standard,” Clyma v.
Sunoco, Inc., 594 F.3d 777, 783 (10th Cir. 2010)
(internal quotation marks omitted).
The Raders contend the district court abused its
discretion by failing to properly assess the facts and
totality of the circumstances. They search Ms.
Ortwerth’s deposition testimony for statements that
Citibank did not have an interest in the Raders’ loan
and characterize Citibank’s failure to correct its
“admitted misrepresentations” as exemplifying fraud
and an intention to continue wrongful conduct. Aplt.
Br. at 11. They also contend the district court abused
its discretion by misapplying the law and not exercising
its inherent power to vacate the judgment. Citibank
responds that, at most, it made a mistake about its
Cir. 2001) (“We review the disposition of a Rule 60(b) action for
fraud on the court under an abuse of discretion standard.”). But
Rule 60(b)’s structure was revised in 2007, with some of its
contents—including the provision at issue in this case—moving to
Rule 60(d). Because those changes were “intended to be stylistic
only,” Fed. R. Civ. P. 60 advisory committee’s note to 2007
amendment, we continue to apply an abuse of discretion standard.

App. 7
interest in the loan—a mistake that was legally
irrelevant to Citibank’s right to enforce the note
because it possessed the note. Citibank further
responds that this type of error does not constitute a
deliberate scheme to defraud the court under the
relevant standard (even in filings by attorneys) and
that the Raders did not present clear and convincing
evidence of fraud, as required.
Having carefully reviewed the record and applicable
law, we discern no abuse of discretion here. Rule 60(d),
which was termed a “savings clause” in its previous
iteration, see Zurich N. Am. v. Matrix Serv., Inc., 426
F.3d 1281, 1289 (10th Cir. 2005), provides that Rule 60
“does not limit a court’s power to . . . set aside a
judgment for fraud on the court.” Fed. R. Civ. P.
60(d)(3). We have made clear that fraud on the court
encompasses “only the most egregious misconduct, such
as bribery of a judge or members of a jury, or the
fabrication of evidence by a party in which an attorney
is implicated.” Buck, 281 F.3d at 1342 (internal
quotation marks omitted). It requires “a showing that
one has acted with an intent to deceive or defraud the
court,” that is, “conscious wrongdoing.” Id. (internal
quotation marks omitted). “Less egregious misconduct,
such as nondisclosure to the court of facts allegedly
pertinent to the matter before it, will not ordinarily rise
to the level of fraud on the court.” Id. (internal
quotation marks omitted).
The district court evaluated the alleged conduct
within the framework articulated in Buck and Weese v.
Schukman, 98 F.3d 542, 552-53 (10th Cir. 1996), and
correctly concluded the assertions do not rise to the

App. 8
level of fraud on the court as contemplated by Rule
60(d)(3). We affirm for the reasons stated in its order
dated May 4, 2018.
Conclusion
The district court’s denial of the Raders’ Rule
60(d)(3) motion is affirmed.
Entered for the Court
Mary Beck Briscoe
Circuit Judge

App. 9

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Christine M. Arguello
Civil Action No. 14-cv-00784-CMA-BNB
[Filed May 4, 2018]
_____________________________________________
VIVIAN L. RADER, and STEVEN R. RADER, )
Plaintiffs,
)
)
v.
)
)
CITIBANK, N.A. as Successor Trustee to
)
U.S. Bank National Association, as Successor )
to Wachovia Bank National Association as
)
Trustee for the Certificate Holders of Mastr
)
Alternative Loan Trust 2004-1 Mortgage Pass )
Through Certificates Series 2004-1,
)
MORTGAGE REGISTRATION SYSTEMS,
)
INC., UBS WARBURG REAL ESTATE
)
SECURITIES, INC., OCWEN LOAN
)
SERVICING LLC, and DOES 1-10,
)
Defendant.
)
____________________________________________ )
ORDER DENYING PLAINTIFF’S
MOTION TO RE-OPEN CASE
This matter is before the Court on Plaintiffs Vivian
L. Rader and Steven R. Rader’s Motion to Re-open Case

App. 10
(Doc. # 33), wherein they argue that Defendant
Citibank perpetrated a fraud upon the Court that
warrants vacating the Court’s final order and judgment
and re-commencing this litigation. Defendants
Citibank; Mortgage Electronic Registration Systems,
Inc.; UBS Warburg Real Estate Securities, Inc.; and
Ocwen Loan Servicing, LLC (Defendants) responded to
the motion and objected to Plaintiffs’ request. For the
following reasons, the Court denies Plaintiffs’ motion.
Plaintiffs move to re-open this case under Federal
Rule of Civil Procure 63(d)(3). Rule 60(d) motions that
assert “fraud on the court” are not time-limited and can
be brought at any time. “Fraud on the court,” however,
is narrowly construed. United States v. Buck, 281 F.3d
1336, 1342 (10th Cir. 2002). “Fraud upon the court”
consists of “only the most egregious conduct, such as
bribery of a judge” or the “fabrication of evidence by a
party in which an attorney is implicated.” Id. It is fraud
“directed to the judicial machinery itself . . . where the
impartial functions of the court have been directly
corrupted.” Id. Less egregious conduct such as
“nondisclosure of [pertinent] facts . . . will not
ordinarily rise to the level of fraud on the court.” Id.
Nor will “fraud between the parties or fraudulent
documents, false statements[,] or perjury” meet the
requirements of Rule 60(d)(3). Moreover, “intent to
defraud is an absolute prerequisite,” Weese v.
Schukman, 98 F.3d 542, 553 (10th Cir. 1996), and proof
of fraud must be by clear and convincing evidence. Id.
at 552.
Plaintiff’s assertion of fraud does not rise to the
level of fraud on the court as contemplated by Rule

App. 11
60(d)(3), nor has Plaintiff satisfied the clear and
convincing evidentiary standard. Simply put, Plaintiff
argues that Defendant Citibank misrepresented facts
to the Court. Even if true, Defendant’s
misrepresentations are insufficiently egregious to
support reopening this case. Plaintiff does not
adequately contend that Defendant Citibank’s attorney
was involved, that the impartial functions of this Court
were corrupted, or even that Defendant Citibank acted
with fraudulent intent.
The Court therefore DENIES Plaintiff’s Motion to
Re-open this case. (Doc. # 33.)
BY THE COURT:
/s/ Christine M. Arguello
CHRISTINE M. ARGUELLO
United States District Judge
DATED: May 4, 2018

App. 12

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 14-1472
(D.C. No. 1:14-CV-00784-CMA-BNB)
(D. Colo.)
[Filed October 13, 2015]
__________________________________________
VIVIAN L. RADER; STEVEN R. RADER,
)
Plaintiffs - Appellants,
)
)
v.
)
)
CITIBANK, N.A., as Successor Trustee to
)
U.S. Bank National Association as
)
Successor to Wachovia Bank National
)
Association as Trustee for the
)
Certificateholder of Mastr Alternative Loan )
Trust 2004-1 Mortgage Pass through
)
Certificates Series 2004-1; MORTGAGE
)
REGISTRATION SYSTEMS, INC.; UBS
)
WARBURG REAL ESTATE
)
SECURITIES, INC.; OCWEN LOAN
)
SERVICING LLC, and Does 1-10,
)
Defendants - Appellees.
)
_________________________________________ )

App. 13
ORDER AND JUDGMENT*
Before HARTZ, PHILLIPS, and McHUGH, Circuit
Judges.
Vivian L. Rader and Steven R. Rader (Raders)
appeal from the district court’s judgment dismissing
their claims against the defendants with prejudice. In
their amended complaint (the Complaint) the Raders
sought declaratory and injunctive relief to prevent the
defendants from foreclosing on a mortgage securing
Mr. Rader’s promissory note, and a decree quieting title
and extinguishing all the defendants’ claims to the
mortgaged property. The district court considered the
exhibits offered by the defendants in support of their
motion to dismiss. It then determined that Citibank
was the possessor and holder of the promissory note,
which had been endorsed in blank, and that (contrary
to the Raders’ primary argument) it was legally
irrelevant how it became the holder. Hence, Citibank
had standing to enforce the note and pursue foreclosure
proceedings. The court concluded that the Raders’
claims failed as a matter of law and that it would be
futile to grant them leave to amend the Complaint. We
affirm.

*

After examining the briefs and appellate record, this panel has
determined unanimously that oral argument would not materially
assist in the determination of this appeal. See Fed. R. App. P.
34(a)(2); 10th Cir. R. 34.1(G). The case is therefore ordered
submitted without oral argument. This order and judgment is not
binding precedent, except under the doctrines of law of the case,
res judicata, and collateral estoppel. It may be cited, however, for
its persuasive value consistent with Fed. R. App. P. 32.1 and 10th
Cir. R. 32.1.

App. 14
The Raders’ challenges to the district court’s
reasoning are unpersuasive. They complain that the
district court should not have considered the
defendants’ exhibits on a motion to dismiss, and that
consideration of the exhibits converted the proceeding
to one for summary judgment without adequate notice
to them. But the district court explained why the
documents could be considered under our precedent in
Gee v. Pacheco, 627 F.3d 1178, 1186 (10th Cir. 2010).
And it observed that the Raders did not dispute the
authenticity of the exhibits submitted by the
defendants, but only disagreed about the legal
conclusions that could be drawn from them.
In their opening brief on appeal, the Raders present
no analysis concerning why Gee does not apply except
to note that this court in Gee rejected the use of some
of the documents in that case, on which the district
court had “improperly relied . . . to refute [the
plaintiff’s] factual assertions and effectively convert the
motion to one for summary judgment without notice.”
Id. at 1187. Here, however, although the Raders claim
that the district court used the documents submitted
by the defendants to make determinations on disputed
material issues of fact, they point to no such factual
findings in their brief.1 Indeed, the brief accurately
1

The closest they come is their reference to the sentence in the
district court’s opinion referring to the state court’s approval of the
substitution of Citibank for U.S. Bank as the party seeking
foreclosure. But this terse reference to that sentence does not
preserve a legal issue, see Bronson v. Swensen, 500 F.3d 1099,
1104-05 (10th Cir. 2007) (“[W]e routinely have declined to consider
arguments that are . . . inadequately presented . . . in an
appellant’s opening brief. . . . . [C]ursory statements, without

App. 15
describes the true dispute when it states that “[the
Raders] disagreed about the legal conclusions that
could be drawn from the documents submitted by
Appellees.” Aplt. Opening Br. at 21 (emphasis added).
The Raders also complain that the district court
entirely failed to address two of their arguments. First,
they argued that in the chain of title for their
promissory note was a trust that could not accept a
transfer of the note if the loan was in default or in
danger of going into default, or if the transfer was after
the closing date specified in the trust. But they did not
plead any facts showing when, if ever, any of these
conditions existed; and, as previously noted, Citibank
can foreclose without showing how it became the holder
of the note. Second, they argue that the note may have
been paid down or even paid off. But, again, they
pleaded no facts showing that any such payment was
ever made.
Finally, although they assert that the Complaint
states a valid claim for relief, the Raders argue that we
should reverse and remand so they can seek leave to
file an amended version of the Complaint. Their
conclusory request for leave to amend does not entitle
the Raders to amend their complaint or to avoid the
dismissal with prejudice. Cf. In re Gold Resource Corp.
Securities Litigation, 776 F.3d 1103, 1118-19 (10th Cir.
2015) (“The district court did not abuse its discretion in

supporting analysis and case law, fail to constitute the kind of
briefing that is necessary.”), and the point is legally irrelevant
because under Colorado law it does not matter who Citibank’s
predecessors were or how Citibank became the holder.

App. 16
dismissing the complaint with prejudice where
plaintiff’s memorandum contained only one sentence at
the very end of his brief alternatively requesting leave
to amend in the event the district court should decide
to dismiss his complaint.”).
CONCLUSION
The judgment of the district court is affirmed.
Entered for the Court
Harris L Hartz
Circuit Judge

App. 17

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Christine M. Arguello
Civil Action No. 14-cv-00784-CMA-BNB
[Filed October 14, 2014]
_____________________________________________
VIVIAN L. RADER, and STEVEN R. RADER, )
Plaintiffs,
)
)
v.
)
)
CITIBANK, N.A. as Successor Trustee to
)
U.S. Bank National Association, as Successor )
to Wachovia Bank National Association as
)
Trustee for the Certificate Holders of Mastr
)
Alternative Loan Trust 2004-1 Mortgage Pass )
Through Certificates Series 2004-1,
)
MORTGAGE REGISTRATION SYSTEMS,
)
INC., UBS WARBURG REAL ESTATE
)
SECURITIES, INC., OCWEN LOAN
)
SERVICING LLC, and DOES 1-10,
)
Defendants.
)
____________________________________________ )

App. 18
ORDER GRANTING DEFENDANTS’
MOTION TO DISMISS
This matter comes before the Court on Defendants’1
Motion to Dismiss (Doc. # 17), filed on August 27, 2014.
For the following reasons, the Court grants the motion.
I. BACKGROUND
In October of 2003, Steven Rader signed a
promissory note (“the Note”) in favor of Greenpoint
Mortgage Funding Inc., in the principal amount of
$630,000. (Doc. # 17-10.) The Note was secured by a
Deed of Trust on his primary residence, located at 47
Bennett Court, Pagosa Springs, Colorado 81147 (“the
Property.”) (Id.; see also Doc. #17-1 at 1.)2 In late 2008,
the Raders stopped making payments on this Note.
(Doc. # 17-1.) At some point thereafter, U.S. Bank
National Association, N.A. (“U.S. Bank”) assumed the
servicing rights on the Raders’ loan. (Doc. # 17-2 at 2.)
This matter has been on two litigation tracks – one
in state court, and one in federal. As for the state court
action, in September of 2012, U.S. Bank initiated

1

Defendants include Citibank, N.A., as Successor Trustee to
Wachovia Bank National Association as Trustee for the Certificate
holders of Mastr Alternative Loan Trust 2004-1 Mortgage Pass
Through Certificates Series 2004-1, Mortgage Electronic
Registration Systems, Inc., UBS Warburg Real Estate Securities,
Inc., and Ocwen Loan Servicing LLC. Hereinafter, these parties
shall be collectively referred to as “Defendants.”
2

Although Vivian Rader did not indorse the Note, she is a party to
this action. Consequently, the Court refers to the Plaintiffs as “the
Raders.”

App. 19
foreclosure proceedings on the Property, pursuant to
Rule 120 of the Colorado Rules of Civil Procedure. (Doc.
# 17-2.) Specifically, U.S. Bank filed a copy of the
original Note and a “Statement by Attorney for
Qualified Holder” with the Archuleta district court
(“the Rule 120 court”), pursuant to Colo. Rev. Stat.
§ 38-8-101(1)(b). (Doc. # 17-9.) In March of 2014, U.S.
Bank filed a Motion to Substitute Petitioner after the
mortgage was transferred to Citibank. (Doc. # 17-5.) At
a hearing regarding the Motion to Substitute, Citibank
presented an original Note bearing a blank
indorsement, as well as evidence of the Raders’
payment history. (Doc. # 17-6 at 21, 30.) After this
hearing, the court granted the motion, finding that
Citibank was the real party in interest and that the
Raders had defaulted on the note. (Id. at 46-47.) The
Raders appealed the Rule 120 court’s order, and the
Colorado Court of Appeals affirmed the lower court’s
findings.3 (Doc. # 18 at 2.) On July 28, 2014, the state
court entered an order authorizing the sale of the
Property.4 (Doc. # 17-8.)

3

Plaintiffs inform the Court that they have petitioned the
Colorado Supreme Court to grant certiorari on this matter. This
Court, however, does not rely on the state court’s findings in
granting the Motion to Dismiss.
4

The significant delay between the initiation of foreclosure
proceedings and the order authorizing sale seems to have been at
least partly attributable to the fact that the Raders engaged in a
variety of procedural tactics – including an attempted removal of
their foreclosure proceeding to federal court and two separate
motions to disqualify the state judges assigned to their case. (See
Doc. ## 17-4, 17-5.)

App. 20
The Raders commenced their federal action in
March of 2014 by filing a Complaint against U.S. Bank.
(Doc. # 1.) The Complaint is relatively simple, and
contains two counts -- one claim for declaratory and
injunctive relief, and one for quiet title. (Id. at 9-12.)
Specifically, it alleges that the Note on the Property
was not properly transferred through various
mortgager entities, such that no entity has proven that
it has standing to initiate foreclosure proceedings. (Id.
at 9.)
Defendants move to dismiss Plaintiffs’ Complaint,
arguing that as a qualified holder of the original Note,
they have standing to enforce that Note and foreclose
on the Property.5 (Doc. # 17.)
II. STANDARD OF REVIEW
Rule 12(b)(6) provides that a court may dismiss a
complaint for “failure to state a claim upon which relief
can be granted.” See Fed. R. Civ. P. 12(b)(6). In
5

Defendants note that there is some case law supporting the
proposition that the Rooker-Feldman doctrine precludes this Court
from exercising subject matter jurisdiction over Plaintiffs’ claims
in the first instance. See, e.g., Diskell v. Thompson, 971 F. Supp. 2d
1050, 1063 (D. Colo. 2013). However, because the Tenth Circuit
has explicitly held that Rooker-Feldman does not apply when a
foreclosure proceeding is still pending, In re Miller, 666 F.3d
1255, 1262 (10th Cir. 2012), and because it is not clear to the Court
whether the foreclosure sale in the instant case has yet occurred,
Rooker-Feldman cannot fully resolve this case. Compare Dillard v.
Bank of New York, 476 F. App’x 690, 692 (10th Cir. 2012) (holding
that Rooker-Feldman did apply when a plaintiff had already been
foreclosed upon and evicted from her home, and was “attempting
to completely undo the foreclosure and eviction proceedings, which
were both final before she ever initiated this suit.”)

App. 21
deciding a motion under Rule 12(b)(6), the Court must
“accept as true all well-pleaded factual allegations . . .
and view these allegations in the light most favorable
to the plaintiff.” Casanova v. Ulibarri, 595 F.3d 1120,
1124 (10th Cir. 2010) (quoting Smith v. United States,
561 F.3d 1090, 1098 (10th Cir. 2009)). However, a
plaintiff may not rely on mere labels or conclusions,
“and a formulaic recitation of the elements of a cause of
action will not do.” See Bell Atl. Corp. v. Twombly, 550
U.S. 544, 555 (2007).
To withstand a motion to dismiss, a complaint must
contain sufficient allegations of fact to state a claim for
relief that is not merely conceivable, but is also
“plausible on its face.” Id. at 570. As the Tenth Circuit
explained in Ridge at Red Hawk, L.L.C. v. Schneider,
“the mere metaphysical possibility that some plaintiff
could prove some set of facts in support of the pleaded
claims is insufficient; the complaint must give the court
reason to believe that this plaintiff has a reasonable
likelihood of mustering factual support for these
claims.” 493 F.3d 1174, 1177 (10th Cir. 2007)
(emphasis in original). It is the plaintiff’s burden to
frame a complaint with enough factual matter – taken
as true – to suggest that he or she is entitled to relief.
Robbins v. Oklahoma, 519 F.3d 1242, 1247 (10th Cir.
2008). Ultimately, the Court has a duty to determine
whether the complaint sufficiently alleges facts
supporting all the elements necessary to establish an
entitlement to relief under the legal theory proposed.
Forest Guardians v. Forsgren, 478 F.3d 1149, 1160
(10th Cir. 2007). “[F]actual allegations that contradict
. . . a properly considered document are not wellpleaded facts that the court must accept as true.” GFF

App. 22
Corp. v. Associated Wholesale Grocers, Inc., 130 F.3d
1381, 1385 (10th Cir. 1997); see also Rapoport v. Asia
Electronics Holding Co., Inc., 88 F. Supp. 2d 179, 184
(S.D.N.Y.2000) (“If [the] documents contradict the
allegations of the . . . complaint, the documents control
and [the] court need not accept as true the allegations
in the . . . complaint.”)
Generally, a court considers only the contents of the
complaint when ruling on a Rule 12(b)(6) motion. Gee
v. Pacheco, 627 F.3d 1178, 1186 (10th Cir. 2010).
Nevertheless, a court may consider materials in
addition to the pleadings in certain circumstances. For
example, it may consider documents attached to the
complaint, or documents referred to in and central to
the complaint, when no party disputes their
authenticity. Id. The Court may also consider “matters
of which a court may take judicial notice.” Id. (quoting
Tellabs, Inc. v. Makor Issues & Rights, Ltd., 551 U.S.
308, 322 (2007)). In particular, if a plaintiff does not
incorporate by reference or attach a document to his or
her complaint, a defendant may submit an
undisputably authentic copy which may be considered
in ruling on a motion to dismiss. GFF Corp., 130 F.3d
at 1384; see also Utah Gospel Mission v. Salt Lake City
Corp., 425 F.3d 1249, 1253–54 (10th Cir. 2005) (noting
that a document which is “central to the plaintiff’s
claim and referred to in the complaint may be
considered in resolving a motion to dismiss, at least
where the document’s authenticity is not in dispute.”).
The Court may take judicial notice of a fact which is
not subject to reasonable dispute, a requirement that
is satisfied if the fact is “capable of accurate and ready
determination by resort to sources whose accuracy

App. 23
cannot reasonably be questioned.” Fed. R. Evid.
201(b)(2).
Defendants offered ten exhibits in support of their
Motion to Dismiss and three in support of their Reply.
Plaintiffs appended no exhibits either to their
Complaint or to their Response to Defendants’ Motion
to Dismiss. In their Response, Plaintiffs do not dispute
the authenticity of any of these exhibits in and of
themselves, but rather, disagree with the Defendants
about the legal conclusions that can be drawn from
these exhibits; they allege, for example, that “there is
a conflict in claimed ownership of the [N]ote,” but do
not allege the Note itself is fraudulent or inauthentic in
any way. (Doc. # 18 at 4.) Accordingly, this Court may
consider the public records attached as exhibits to
Defendants’ Motion, including the documents filed in
Archuleta County case number 2012-cv-000143,
without converting the pending Motion to Dismiss into
a motion for summary judgment. See Pacheco, 627 F.3d
at 1186; GFF Corp., 130 F.3d at 1384.
III. DISCUSSION
Colorado foreclosure law allows a holder of evidence
of a debt to foreclose upon breach of the terms of the
deed of trust. Under Colorado law, a promissory note is
a negotiable instrument that is freely assignable, Colo.
Rev. Stat. § 4-3-104,6 and if an instrument is payable to
the bearer, it may be negotiated to a holder by transfer
6

Indeed, the Note itself specifically provides that “I understand
that the Lender may transfer this note. The Lender or anyone who
takes this note by transfer and who is entitled to receive payments
under this Note is called the ‘Note Holder.’” (Doc. # 17-10 at 1.)

App. 24
of possession alone, Colo. Rev. Stat. § 4-3-201. The term
“holder” also includes a “person in possession of a
negotiable instrument evidencing a debt, which has
been duly negotiated to such person or to bearer or
indorsed in blank.” Id. § 38–38–100.3(10)(c).
The Note was executed on Plaintiff’s behalf payable
to the original lender, GreenPoint Mortgage Funding,
Inc. (Doc. # 17-10.) The Note is endorsed in blank, and
Defendants have possession of the note. (See id.; see
also Doc. # 17-6 at 21.) Accordingly, the Defendants are
the holder of the Note.
In order to properly foreclose on a property, the
holder of an evidence of debt must file:
The original evidence of debt . . . together with
the original indorsement or assignment thereof,
if any, to the holder . . . or, in lieu of the original
evidence of debt . . . a statement signed by the
attorney for such holder, citing the paragraph of
section 38-38-100.3(20) under which the holder
claims to be a qualified holder and certifying or
stating that the copy of the evidence of debt is
true and correct.
§ 38-38-101(1)(b), (1)(b)(II). Here, U.S. Bank, the prior
holder of the Note, fulfilled this requirement by filing
a Verified Motion for Order Authorizing Sale, which
included a “Statement by Attorney for Qualified
Holder” indicating that U.S. Bank was a qualified
holder of the Note pursuant to 38-38-100.3(20)(j). (Doc.
## 17-2, 17-9.) Accordingly, upon U.S. Bank’s
subsequent assignment of the note to Citibank, and the
Rule 120 court’s approval of the Motion to Substitute

App. 25
Petitioner, Citibank stood in the shoes of U.S. Bank –
as a matter of law – and had standing to enforce the
Note.
Plaintiffs’ primary argument in opposition to the
instant motion is that Defendants have not shown
precisely how they came to be the holders of the Note,
as the Note was transferred through multiple loan
servicer entities. See (Doc. # 18 at 5.) (referencing
alleged conflicts of ownership of the Note due to “the
alleged transfers of the loan from the original lender to
Wachovia, then from Wachovia to the Countywide
entity, from that entity to the non-existent Deutsche
Wachonia Bank, and then to [U.S. Bank].”).
Nevertheless, the Plaintiffs present no allegation that
another party (other than Citibank) is actually the
holder of the Note; rather, their argument is that it is
impossible to tell which party is the actual holder of the
Note. As discussed above, however, this argument
misses the mark: a plain reading of the documents
show that Defendants are the holders of the Note, by
virtue of their possession of the Note and its blank
indorsement. Under Colorado law, a party need not
prove how it was in possession of a promissory note to
enforce it, and can establish standing to foreclose
simply by complying with the requirements of Colo.
Rev. Stat 38-38-101(1)(b)(II) – just as Defendants have
done here. Mbaku v. Bank of Am., No. 12-CV-00190PAB-KLM, 2014 WL 4099313, at *7 (D. Colo. Aug. 20,
2014) (noting that, under Colorado law, “physical
possession of a promissory note endorsed in blank is
itself sufficient to establish a right to enforcement”)
(citing In re Miller, 666 F.3d 1255, 1263 (10th Cir.
2012)).

App. 26
In sum, because Defendants have shown that they
have standing to foreclose on the Property,7 Plaintiffs’
claim to declaratory relief fails as a matter of law.
Because the viability of their second claim for quiet
title is inextricably linked with that of their declaratory
relief claim, the quiet title claim also fails as a matter
of law Additionally, an amendment to the complaint
would be futile and the Court dismisses this action
with prejudice. See Grossman v. Novell, Inc., 120 F.3d
1112, 1126 (10th Cir. 1997) (A dismissal with prejudice
is appropriate where a complaint fails to state a claim
under Rule 12(b)(6) and granting leave to amend would
be futile).
IV. CONCLUSION
Having carefully reviewed the Complaint, the
arguments advanced by the parties, and permissible
evidence, the Court concludes the Plaintiffs fail to state
a claim upon which relief may be granted, and the
Clerk of the Court shall enter judgment in favor of
Defendant and against Plaintiff. Pursuant to D.C. Colo.
L Civ. R. 54.1, Defendant may thereafter have its costs
by filing a bill of costs within 14 days of the date of that
order. Accordingly, it is

7

Citing Plymouth Capital Co.., Inc. v. District Court of Elbert
County, 955 P.2d 1014, 1017 (Colo. 1998), the Plaintiffs argue that
the Rule 120 court’s finding that Citibank had standing to enforce
the Note is not binding upon this Court. This Court need not
decide this issue, however; its own careful, independent review of
the court filings in that case, the facts alleged in the Complaint,
and Colorado foreclosure law, led it to the same conclusion as the
Archuleta district court.

App. 27
ORDERED that Defendants’ Motion to Dismiss
(Doc. # 17) is GRANTED. It is
FURTHER ORDERED that Plaintiffs’ claims are
DISMISSED WITH PREJUDICE. It is
FURTHER ORDERED that this case is dismissed
in its entirety.
DATED: October 14, 2014
BY THE COURT:
/s/ Christine M. Arguello
CHRISTINE M. ARGUELLO
United States District Judge

App. 28

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 14-cv-00784-CMA-BNB
[Filed October 15, 2014]
_____________________________________________
VIVIAN L. RADER, and STEVEN R. RADER, )
Plaintiffs,
)
)
v.
)
)
CITIBANK, N.A. as Successor Trustee to
)
U.S. Bank National Association, as Successor )
to Wachovia Bank National Association as
)
Trustee for the Certificate Holders of Mastr
)
Alternative Loan Trust 2004-1 Mortgage Pass )
Through Certificates Series 2004-1,
)
MORTGAGE REGISTRATION SYSTEMS,
)
INC., UBS WARBURG REAL ESTATE
)
SECURITIES, INC., OCWEN LOAN
)
SERVICING LLC, and DOES 1-10,
)
Defendants.
)
____________________________________________ )
FINAL JUDGMENT
In accordance with the orders filed during the
pendency of this case, and pursuant to Fed. R. Civ. P.
58(a), the following Final Judgment is hereby entered.

App. 29
Pursuant to the Order Granting Defendants’ Motion
to Dismiss of Judge Christine M. Arguello entered on
October 14, 2014 it is
ORDERED that Defendants’ Motion to Dismiss
(Doc. No. 17) is GRANTED. It is
FURTHER ORDERED that Plaintiffs’ claims are
DISMISSED WITH PREJUDICE. It is
FURTHER ORDERED that this case is dismissed
in its entirety. It is
FURTHER ORDERED that final judgment is
hereby entered in favor of Defendant and against
Plaintiff. It is
FURTHER ORDERED Pursuant to D.C. Colo. L
Civ. R. 54.1, Defendant may thereafter have its costs
by filing a bill of costs within 14 days of the date of that
order.
Dated at Denver, Colorado this 15th day of October,
2014.
FOR THE COURT:
JEFFREY P. COLWELL, CLERK
By: s/ A. Thomas
Deputy Clerk

App. 30

APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 18-1208
[Filed April 15, 2019]
__________________________________________
VIVIAN L. RADER, et al.,
)
Plaintiffs - Appellants,
)
)
v.
)
)
CITIBANK, N.A., as Successor Trustee to
)
U.S. Bank National Association as
)
Successor to Wachovia Bank National
)
Association as Trustee for the Certificate
)
holders of Mastr Alternative Loan Trust
)
2004-1 Mortgage Pass through
)
Certificates Series 2004-1, et al.,
)
Defendants - Appellees.
)
_________________________________________ )
ORDER
Before BRISCOE, BACHARACH, and MORITZ,
Circuit Judges.
Appellants’ petition for rehearing is denied.
The petition for rehearing en banc was transmitted
to all of the judges of the court who are in regular
active service. As no member of the panel and no judge

App. 31
in regular active service on the court requested that the
court be polled, that petition is also denied.
Entered for the Court
Elisabeth A. Shumaker
ELISABETH A. SHUMAKER, Clerk

App. 32

APPENDIX G
U.S. Const. Amend. XIV, Sec. 1:
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside.
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.

App. 33

APPENDIX H
Colorado Rev. Stat. § 38-38-101
Colorado Revised Statutes Title 38 Property Real and
Personal § 38-38-101 Holder of evidence of debt may
elect to foreclose
(1) Documents required. Whenever a holder of an
evidence of debt declares a violation of a covenant of a
deed of trust and elects to publish all or a portion of the
property therein described for sale, the holder or the
attorney for the holder shall file the following with the
public trustee of the county where the property is
located:
(a) A notice of election and demand signed and
acknowledged by the holder of the evidence of debt
or signed by the attorney for the holder;
(b) The original evidence of debt, including any
modifications to the original evidence of debt,
together with the original indorsement or
assignment thereof, if any, to the holder of the
evidence of debt or other proper indorsement or
assignment in accordance with subsection (6) of this
section or, in lieu of the original evidence of debt,
one of the following:
(I) A corporate surety bond in the amount of one
and one-half times the face amount of the
original evidence of debt;

App. 34
(II) A copy of the evidence of debt and a
certification signed and properly acknowledged
by a holder of an evidence of debt acting for itself
or as agent, nominee, or trustee under
subsection (2) of this section or a statement
signed by the attorney for such holder, citing the
paragraph of section 38-38-100.3(20) under
which the holder claims to be a qualified holder
and certifying or stating that the copy of the
evidence of debt is true and correct and that the
use of the copy is subject to the conditions
described in paragraph (a) of subsection (2) of
this section; or
(III) A certified copy of a monetary judgment
entered by a court of competent jurisdiction;
(c) The original recorded deed of trust securing the
evidence of debt and any original recorded
modifications of the deed of trust or any recorded
partial releases of the deed of trust, or in lieu
thereof, one of the following:
(I) Certified copies of the recorded deed of trust
and any recorded modifications of the deed of
trust or recorded partial releases of the deed of
trust; or
(II) Copies of the recorded deed of trust and any
recorded modifications of the deed of trust or
recorded partial releases of the deed of trust and
a certification signed and properly acknowledged
by a holder of an evidence of debt acting for itself
or as an agent, nominee, or trustee under
subsection (2) of this section or a signed

App. 35
statement by the attorney for such holder, citing
the paragraph of section 38-38-100.3(20) under
which the holder claims to be a qualified holder
and certifying or stating that the copies of the
recorded deed of trust and any recorded
modifications of the deed of trust or recorded
partial releases of the deed of trust are true and
correct and that the use of the copies is subject
to the conditions described in paragraph (a) of
subsection (2) of this section;
(d) A combined notice pursuant to section 38-38103; except that the combined notice may be
omitted with the prior approval of the officer
because the officer will supply the combined notice;
(e) A mailing list:
(f) Any affidavit recorded pursuant to section 38-35109(5) affecting the deed of trust described in
paragraph (c) of this subsection (1), which affidavit
shall be accepted by the public trustee as modifying
the deed of trust for all purposes under this article
only if the affidavit is filed with the public trustee
at the same time as the other documents required
under this subsection (1);
(f.5) If there is a loan servicer of the evidence of debt
described in the notice of election and demand and
the loan servicer is not the holder, a statement
executed by the holder of the evidence of debt or the
attorney for such holder, identifying, to the best of
such person’s knowledge, the name of the loan
servicer;

App. 36
(g) A statement executed by the holder of an
evidence of debt, or the attorney for such holder,
identifying, to the best knowledge of the person
executing such statement, the name and address of
the current owner of the property described in the
notice of election and demand; and
(h) Repealed by Laws 2016, Ch. 210, § 102, eff.
June 6, 2016.
(2) Foreclosure by qualified holder without
original evidence of debt, original or certified
copy of deed of trust, or proper indorsement.
(a) A qualified holder, whether acting for itself or as
agent, nominee, or trustee under section 38-38-100.
3(20), that elects to foreclose without the original
evidence of debt pursuant to subparagraph (II) of
paragraph (b) of subsection (1) of this section, or
without the original recorded deed of trust or a
certified copy thereof pursuant to subparagraph (II)
of paragraph (c) of subsection (1) of this section, or
without the proper indorsement or assignment of an
evidence of debt under paragraph (b) of subsection
(1) of this section shall, by operation of law, be
deemed to have agreed to indemnify and defend any
person liable for repayment of any portion of the
original evidence of debt in the event that the
original evidence of debt is presented for payment to
the extent of any amount, other than the amount of
a deficiency remaining under the evidence of debt
after deducting the amount bid at sale, and any
person who sustains a loss due to any title defect
that results from reliance upon a sale at which the
original evidence of debt was not presented. The

App. 37
indemnity granted by this subsection (2) shall be
limited to actual economic loss suffered together
with any court costs and reasonable attorney fees
and costs incurred in defending a claim brought as
a direct and proximate cause of the failure to
produce the original evidence of debt, but such
indemnity shall not include, and no claimant shall
be entitled to, any special, incidental, consequential,
reliance, expectation, or punitive damages of any
kind. A qualified holder acting as agent, nominee, or
trustee shall be liable for the indemnity pursuant to
this subsection (2).
(b) In the event that a qualified holder or the
attorney for the holder commences a foreclosure
without production of the original evidence of debt,
proper indorsement or assignment, or the original
recorded deed of trust or a certified copy thereof, the
qualified holder or the attorney for the holder may
submit the original evidence of debt, proper
indorsement or assignment, or the original recorded
deed of trust or a certified copy thereof to the officer
prior to the sale. In such event, the sale shall be
conducted and administered as if the original
evidence of debt, proper indorsement or assignment,
or the original recorded deed of trust or a certified
copy thereof had been submitted at the time of
commencement of such proceeding, and any
indemnities deemed to have been given by the
qualified holder under paragraph (a) of this
subsection (2) shall be null and void as to the
instrument produced under this paragraph (b).

App. 38
(c) In the event that a foreclosure is conducted
where the original evidence of debt, proper
indorsement or assignment, or original recorded
deed of trust or certified copy thereof has not been
produced, the only claims shall be against the
indemnitor as provided in paragraph (a) of this
subsection (2) and not against the foreclosed
property or the attorney for the holder of the
evidence of debt. Nothing in this section shall
preclude a person liable for repayment of the
evidence of debt from pursuing remedies allowed by
law.
(3) Foreclosure on a portion of property. A holder
of an evidence of debt may elect to foreclose a deed of
trust under this article against a portion of the
property encumbered by the deed of trust only if such
portion is encumbered as a separate and distinct parcel
or lot by the original or an amended deed of trust. Any
foreclosure conducted by a public trustee against less
than all of the property then encumbered by the deed
of trust shall not affect the lien or the power of sale
contained therein as to the remaining property. The
amount bid at a sale of less than all of the property
shall be deemed to have satisfied the secured
indebtedness to the extent of the amount of the bid.
(4) Notice of election and demand. A notice of
election and demand filed with the public trustee
pursuant to this section shall contain the following:
(a) The names of the original grantors of the deed of
trust being foreclosed and the original beneficiaries
or grantees thereof;

App. 39
(b) The name of the holder of the evidence of debt;
(c) The date of the deed of trust being foreclosed;
(d) The recording date, county, book, and page or
reception number of the recording of the deed of
trust being foreclosed;
(e) The amount of the original principal balance of
the secured indebtedness;
(f) The amount of the outstanding principal balance
of the secured indebtedness as of the date of the
notice of election and demand;
(g) A legal description of the property to be
foreclosed as set forth in the documents to be
provided to the public trustee pursuant to
paragraph (c) of subsection (1) of this section;
(h) A statement of whether the property described
in the notice of election and demand is all or only a
portion of the property then encumbered by the
deed of trust being foreclosed;
(i) A statement of the violation of the covenant of
the evidence of debt or deed of trust being foreclosed
upon which the foreclosure is based, which
statement shall not constitute a waiver of any right
accruing on account of any violation of any covenant
of the evidence of debt or deed of trust other than
the violation specified in the notice of election and
demand;
(j) The name, address, business telephone number,
and bar registration number of the attorney for the
holder of the evidence of debt, which may be

App. 40
indicated in the signature block of the notice of
election and demand; and
(k) A description of any changes to the deed of trust
described in the notice of election and demand that
are based on an affidavit filed with the public
trustee under paragraph (f) of subsection (1) of this
section, together with the recording date and
reception number or book and page number of the
recording of that affidavit in the records.
(5) Error in notice. In the event that the amount of
the outstanding principal balance due and owing upon
the secured indebtedness is erroneously set forth in the
notice of election and demand or the combined notice,
the error shall not affect the validity of the notice of
election and demand, the combined notice, the
publication, the sale, the certificate of purchase
described in section 38-38-401, or any other document
executed in connection therewith.
(6) Indorsement or assignment.
(a) Proper indorsement or assignment of an
evidence of debt shall include the original
indorsement or assignment or a certified copy of an
indorsement or assignment recorded in the county
where the property being foreclosed is located.
(b) Notwithstanding the provisions of paragraph (a)
of this subsection (6), the original evidence of debt
or a copy thereof without proper indorsement or
assignment shall be deemed to be properly indorsed
or assigned if a qualified holder presents the
original evidence of debt or a copy thereof to the
officer together with a statement in the certification

App. 41
of the qualified holder or in the statement of the
attorney for the qualified holder pursuant to
subparagraph (II) of paragraph (b) of subsection (1)
of this section that the party on whose behalf the
foreclosure was commenced is the holder of the
evidence of debt.
(7) Multiple instruments. If the evidence of debt
consists of multiple instruments, such as notes or
bonds, the holder of the evidence of debt may elect to
foreclose with respect to fewer than all of such
instruments or documents by identifying in the notice
of election and demand and the combined notice only
those to be satisfied in whole or in part, in which case
the requirements of this section shall apply only as to
those instruments or documents.
(8) Assignment or transfer of debt during
foreclosure. (a) The holder of the evidence of debt may
assign or transfer the secured indebtedness at any time
during the pendency of a foreclosure action without
affecting the validity of the secured indebtedness. Upon
receipt of written notice signed by the holder who
commenced the foreclosure action or the attorney for
the holder stating that the evidence of debt has been
assigned and transferred and identifying the assignee
or transferee, the public trustee shall complete the
foreclosure as directed by the assignee or transferee or
the attorney for the assignee or transferee. No holder
of an evidence of debt, certificate of purchase, or
certificate of redemption shall be liable to any third
party for the acts or omissions of any assignee or
transferee that occur after the date of the assignment
or transfer.

App. 42
(b) The assignment or transfer of the secured
indebtedness during the pendency of a foreclosure
shall be deemed made without recourse unless
otherwise agreed in a written statement signed by
the assignor or transferor. The holder of the
evidence of debt, certificate of purchase, or
certificate of redemption making the assignment or
transfer and the attorney for the holder shall have
no duty, obligation, or liability to the assignee or
transferee or to any third party for any act or
omission with respect to the foreclosure or the loan
servicing of the secured indebtedness after the
assignment or transfer. If an assignment or transfer
is made by a qualified holder that commenced the
foreclosure pursuant to subsection (2) of this
section, the qualified holder’s indemnity under said
subsection (2) shall remain in effect with respect to
all parties except to the assignee or transferee,
unless otherwise agreed in a writing signed by the
assignee or transferee if the assignee or transferee
is a qualified holder.
(c) If an assignment or transfer is made to a holder
of an evidence of debt other than a qualified holder,
the holder must file with the officer the original
evidence of debt and the original recorded deed of
trust or, in lieu thereof, the documents required in
paragraphs (b) and (c) of subsection (1) of this
section. An assignee or transferee shall be
presumed to not be a qualified holder, and as such,
shall be subject to the provisions of this paragraph
(c), unless a signed statement by the attorney for
such assignee or transferee that cites the paragraph
of section 38-38-100.3(20) under which the assignee

App. 43
or transferee claims to be a qualified holder is filed
with the officer.
(9) Partial release from deed of trust. At any time
after the recording of the notice of election and demand
but prior to the sale, a portion of the property may be
released from the deed of trust being foreclosed
pursuant to section 38-39-102 or as otherwise provided
by order of a court of competent jurisdiction recorded in
the county where the property being released is
located. Upon recording of the release or court order,
the holder of the evidence of debt or the attorney for
the holder shall pay the fee described in section 38-37104(1)(b)(IX), amend the combined notice, and, in the
case of a public trustee foreclosure, amend the notice of
election and demand to describe the property that
continues to be secured by the deed of trust or other
lien being foreclosed as of the effective date of the
release or court order. The public trustee shall record
the amended notice of election and demand upon
receipt. Upon receipt of the amended combined notice,
the public trustee shall republish and mail the
amended combined notice in the manner set forth in
section 38-38-109(1)(b).
(10) Deposit. (a) The public trustee may require the
holder or servicer to make a deposit of up to six
hundred fifty dollars or the amount of the fee permitted
pursuant to section 38-37-104(1)(b)(I), whichever is
greater, at the time the notice of election and demand
is filed, to be applied against the fees and costs of the
public trustee.
(b) The public trustee may allow the attorney for
the holder or servicer or the holder or servicer, if

App. 44
not represented by an attorney, to establish with
the public trustee one or more accounts, from which
the public trustee may pay the fees and costs of the
public trustee in any foreclosure filed by the holder
or the attorney for the holder and through which
the public trustee may transmit refunds or cures,
overbids, or redemption proceeds.

App. 45

APPENDIX I
Colorado Rule 120 (with changes tracked
between 2016 and the 2018 amendment)
Rule 120. Orders Authorizing Foreclosure Sales
Under Powers in a Deed of Trust to the Public
Trustee
(a) Motion for Order Authorizing Sale; Contents.
Whenever an order of court is desired authorizing a
foreclosure sale under a power of sale contained in an
instrument a deed of trust to a public trustee, any
interested person entitled to enforce the deed of trust
or someone on such person’s behalf may file a verified
motion in a district court seeking such order. The
motion shall be captioned: “Verified Motion for Order
Authorizing a Foreclosure Sale under C.R.C.P. 120,”
and shall be verified by a person with direct knowledge
of the contents of the motion who is competent to
testify regarding the facts stated in the motion.
(1) Contents of Motion. The motion shall include
a copy of the evidence of debt, the deed of trust
containing the power of sale, and any subsequent
modifications of these documents. The motion
accompanied by a copy of the instrument containing
the power of sale, shall describe the property to be
sold, and shall specify the default or other facts
giving rise to the default, and may include
documents relevant to the claim of a default claimed
by the moving party to justify invocation of the
power of sale.

App. 46
(A) When the property to be sold is personal
property, the motion shall state the names and
last known addresses, as shown by the records of
the moving party, of all persons known or
believed by the moving party to have an interest
in such property which may be materially
affected or extinguished by such sale.
(B) When the property to be sold is real property
and the power of sale is contained in a deed of
trust to a public trustee, the motion shall state
the name and last known address, as shown by
the real property records of the clerk and
recorder of the county where the property or any
portion thereof is located and the records of the
moving party, of:
(i) the grantor of such the deed of trust;,
(ii) of the current record owner of the
property to be sold;, and of
(iii) allny persons known or believed by the
moving party to be personally liable upon the
indebtedness for the debt secured by the deed
of trust;, and
(iv) as well as the names and addresses of
those persons who appear to have an
acquired a record interest in such real
property that is evidenced by a document
recorded after, subsequent to the recording of
the such deed of trust and before prior to the
recording of the notice of election and
demand for sale, or that is otherwise
subordinate to the lien of the deed of trust

App. 47
whether by deed, mortgage, judgment or any
other instrument of record.; and
(v) those persons whose interest in the real
property may otherwise be affected by the
foreclosure.
(C) In describing and giving notice to persons
who appear to have acquired a record interest in
real property, the address of each such person
shall be the address which that is given in the
recorded instrument evidencing such person’s
interest., except that iIf such recorded
instrument does not give an address or if only
the county and state are given as the address of
such person, no address need be stated for such
person in the motion.
(2) Setting of Response Deadline; Hearing
Date. On receipt of the motion, tThe clerk shall set
a deadline by which any response to the motion
must be filed. The deadline shall be fix a time not
less than 21 nor more than 35 days after the filing
of the motion and a place for the hearing of such
motion. For purposes of any statutory reference to
the date of a hearing under C.R.C.P. 120, the
response deadline set by the clerk shall be regarded
as the scheduled hearing date unless a later hearing
date is set by the court pursuant to section (c)(2)
below.
(b) Notice of Response Deadline; Contents;
Service of Notice. The moving party shall issue a
notice stating:

App. 48
(1) a descriptionbing of the deed of trustthe
instrument containing the power of sale, the
property sought to be sold thereunder at
foreclosure, and the default or other facts asserted
in the motion to support the claim of a default;
(2) upon which the power of sale is invoked. The
notice shall also state the time and place set for the
hearing and shall refer to the right of any interested
person to file and serve a responses as provided in
section (c), including a reference to the last day for
filing such responses and the addresses at which
such responses must be filed and served and the
deadline set by the clerk for filing a response;.
(3) The notice shall contain the following
advisement: “If this case is not filed in the county
where your property or a substantial part of your
property is located, you have the right to ask the
court to move the case to that county. If you file a
response and the court sets a hearing date, your
request to move the case must be filedYour request
may be made as a part of your response or any
paper you file with the court at least 7 days before
the date of the hearing unless the request was
included in your response.”; and
(4) The notice shall contain the mailing return
address of the moving party and, if different, the
name and address of any authorized servicer for the
loan secured by the deed of trust. If the moving
party or authorized servicer, if different, is not
authorized to modify the evidence of the debt, the
notice shall state in addition the name, mailing
address, and telephone number of the person

App. 49
authorized to modify the evidence of debt a
representative authorized to address loss mitigation
requests. A copy of C.R.C.P. 120 shall be included
with or attached to the notice. The Such notice shall
be served by the moving party not less than 14 days
prior to the response deadline set by the clerk,date
set for the hearing, by:
(A1) mailing a true copy thereof of the notice to
each person named in the motion (other than
any persons for whom no address is stated) at
thatthe person’s address or addresses stated in
the motion;
(B2) and by filing a copy with the clerk and by
delivering a second copy to the clerk for posting
by the clerk in the courthouse in which the
motion is pending; and
(C3) if the property to be sold is a residential
property as defined by statute, by posting a true
copy of the notice in a conspicuous place on the
subject property as required by statute. Proof of
Such mailing and delivery of the notice to the
clerk for posting in the courthouse, and proof of
posting of the notice on the residential property,
posting shall be evidenced by set forth in the
certificate of the moving party or moving party’s
agent. For the purpose of this section, posting by
the clerk may be electronic on the court’s public
website so long as the electronic address for the
posting is displayed conspicuously at the
courthouse.

App. 50
(c) Response Stating Objection to Motion for
Order Authorizing Sale; Contents; Filing and
Service.
(1) Any interested person who disputes, on grounds
within the scope of the hearing provided for in
section (d), the moving party’s right entitlement to
an order authorizing sale may file and serve a
response to the motion., verified by the oath of such
person, setting forth tThe response must describe
the facts the respondent relies upon in objecting to
the issuance of an order authorizing sale, and may
include which he relies and attaching copies of all
documents which support his the respondent’s
position. The response shall be filed and served not
less later than the response deadline set by the
clerk. The response shall include contact
information for the respondent including name,
mailing address, telephone number, and, if
applicable, an e-mail address. 7 days prior to the
date set for the hearing, said interval including
intermediate Saturdays, Sundays, and legal
holidays, C.R.C.P. 6(a) notwithstanding, unless the
last day of the period so computed is a Saturday, a
Sunday or a legal holiday, in which event the period
runs until the end of the next succeeding day which
is not a Saturday, Sunday or a legal holiday. Service
of the such response upon the moving party shall be
made in accordance with C.R.C.P. 5(b). C.R.C.P. 6(e)
shall not apply to computation of time periods
under this section (c).
(2) If a response is filed stating grounds for
opposition to the motion within the scope of this

App. 51
Rule as provided for in section (d), the court shall
set the matter for hearing at a later date. The clerk
shall clear available hearing dates with the parties
and counsel, if practical, and shall give notice to
counsel and any self-represented parties who have
appeared in the matter, in accordance with the
rules applicable to e-filing, no less than 14 days
prior to the new hearing date.
(d) Hearing; Scope of Issues at the Hearing;
Order Authorizing Foreclosure Sale; Effect of
Order. At the time and place set for the hearing or to
which the hearing may have been continued, Tthe court
shall examine the motion and the responses, if any
responses.
(1) If the matter is set for hearing, tThe scope of
inquiry at the such hearing shall not extend beyond
(A) the existence of a default or other
circumstances authorizing exercise of a power of
sale, under the terms of the instrument deed of
trust described in the motion;,
(B) consideration by the court of the
requirements ofexercise of a power of sale
contained therein, and such other issues
required by the Servicemembers Member Civil
Relief Act (SCRA), 50 U.S.C. § 3931 520, as
amended;.
(C) whether the moving party is the real party
in interest; and

App. 52
(D) whether the status of any request for a loan
modification agreement bars a foreclosure sale
as a matter of law.
The court shall determine whether there is a
reasonable probability that a such default justifying
the sale or other circumstance has occurred, and
whether an order authorizing sale is otherwise
proper under the Servicemembers said Service
Member Civil Relief Act, whether the moving party
is the real party in interest, and, if each of those
matters is determined in favor of the moving party,
whether evidence presented in support of defenses
raised by the respondent and within the scope of
this Rule prevents the court from finding that there
is a reasonable probability that the moving party is
entitled to an order authorizing a foreclosure sale.
The court shall summarily grant or deny the motion
in accordance with such determination. For good
cause shown, the court may continue a hearing.
(2) If no response has been filed by the response
deadline set by the clerk, and if the court is satisfied
that venue is proper and the moving party is
entitled to an order authorizing sale, the court shall
forthwith enter an order authorizing sale.
(3) Any order authorizing sale shall recite the date
the hearing was completed, if a hearing was held,
or, if no response was filed and no hearing was held,
shall recite the response deadline set by the clerk as
the date a hearing was scheduled, but that no
hearing occurred.

App. 53
(4)Neither the granting nor the denial of a motion
An order granting or denying a motion filed under
this Rule shall not constitute an appealable order or
final judgment. The granting of any such a motion
authorizing a foreclosure shall be without prejudice
to the right of any person aggrieved to seek
injunctive or other relief in any court of competent
jurisdiction, and the denial of any such motion shall
be without prejudice to any other right or remedy of
the moving party.
(e) The court shall not require the appointment of an
attorney to represent any interested person as a
condition of granting such motion, unless it appears
from the motion or other papers filed with the court
that there is a reasonable probability that the
interested person is in the military service.
(e) Hearing Dispensed with if no Response Filed. If no
response has been filed within the time permitted by
section (c), the court shall examine the motion and, if
satisfied that venue is proper and the moving party is
entitled to an order authorizing sale upon the facts
stated therein, the court shall dispense with the
hearing and forthwith enter an order authorizing sale.
(f) Venue. For the purposes of this section, a consumer
obligation is any obligation
(1i) as to which the obligor is a natural person, and
(2ii) is incurred primarily for a personal, family, or
household purpose.
Any proceeding under this Rule involving a consumer
obligation shall be brought in and heard in the county

App. 54
in which such consumer signed the obligation or in
which the property or a substantial part of the property
thereof is located. Any proceeding under this Rule
which that does not involve a consumer obligation or an
instrument securing a consumer obligation may be
brought and heard in any county. However, in any
proceeding under this Rule, if a response is timely filed,
and if in the response or in any other writing filed with
the court, the responding party requests a change of
venue to the county in which the encumbered property
or a substantial part thereof is situated, the court shall
order transfer of the proceeding to such county.
(g) Return of Sale. The court shall require a return of
such sale to be made to the court., and iIf it appears
therefrom the return that such the sale was conducted
in conformity with the order authorizing the sale, the
court shall thereupon enter an order approving the
sale. This order is not appealable and shall not have
preclusive effect in any other action or proceedingshall
not have preclusive effect on the parties in any action
for a deficiency judgment or in a civil action
challenging the right of the moving party to foreclosure
or seeking to set aside the foreclosure sale.
(h) Docket Fee. A docket fee in the amount specified
by law shall be paid by the person filing thesuch
motion. Unless the court shall otherwise order, any
person filing a response to the motion shall pay, at the
time of the filing of such response, a docket fee in the
amount specified by law for a defendant or respondent
in a civil action under section 13-32-101(1)(d), C.R.S.

App. 55
COMMITTEE COMMENTS
1989
[1] The 1989 amendment to C.R.C.P. 120 (Sales Under
Powers) is a composite of changes necessary to update
the Rule and make it more workable. The amendment
was developed by a special committee made up of
practitioners and judges having expertise in that area
of practice, with both creditor and debtor interests
represented.
[2] The changes are in three categories. There are
changes that permit court clerks to perform many of
the tasks that were previously required to be
accomplished by the Court and thus save valuable
Court time. There are changes to venue provisions of
the Rule for compliance with the Federal Fair Debt
Collection Practices Act. There are also a number of
editorial changes to improve the language of the Rule.
[3] There was considerable debate concerning whether
the Federal “Fair Debt Collection Practices Act” is
applicable to a C.R.C.P. 120 proceeding. Rather than
attempting to mandate compliance with that federal
statute by specific rule provision, the Committee
recommends that a person acting as a debt collector in
a matter covered by the provisions of the Federal “Fair
Debt Collection Practices Act” be aware of the potential
applicability of the Act and comply with it,
notwithstanding any provision of this Rule.

App. 56
Rule 120. Orders Authorizing Foreclosure
Sale Under Power in a Deed of Trust to
the Public Trustee
(a) Motion for Order Authorizing Sale. When an
order of court is desired authorizing a foreclosure sale
under a power of sale contained in a deed of trust to a
public trustee, any person entitled to enforce the deed
of trust may file a verified motion in a district court
seeking such order. The motion shall be captioned:
“Verified Motion for Order Authorizing a Foreclosure
Sale under C.R.C.P. 120,” and shall be verified by a
person with knowledge of the contents of the motion
who is competent to testify regarding the facts stated
in the motion.
(1) Contents of Motion. The motion shall include
a copy of the evidence of debt, the deed of trust
containing the power of sale, and any subsequent
modifications of these documents. The motion shall
describe the property to be sold, shall specify the
facts giving rise to the default, and may include
documents relevant to the claim of a default.
(A) When the property to be sold is personal
property, the motion shall state the names and
last known addresses, as shown by the records of
the moving party, of all persons known or
believed by the moving party to have an interest
in such property which may be materially
affected or extinguished by such sale.
(B) When the prope1iy to be sold is real property
and the power of sale is contained in a deed of
trust to a public trustee, the motion shall state

App. 57
the name and last known address, as shown by
the real property records of the clerk and
recorder of the county where the property or any
portion thereof is located and the records of the
moving party, of:
(i) the grantor of the deed of trust;
(ii) the current record owner of the property
to be sold;
(iii) all persons known or believed by the
moving party to be personally liable for the
debt secured by the deed of trust;
(iv) those persons who appear to have an
interest in such real property that is
evidenced by a document recorded after the
recording of the deed of trust and before the
recording of the notice of election and
demand for sale; and
(v) those persons whose interest in the real
property may otherwise be affected by the
foreclosure.
(C) In describing and giving notice to persons
who appear to have acquired a record interest in
real property, the address of each such person
shall be the address that is given in the recorded
instrument evidencing such person’s interest. If
such recorded instrument does not give an
address or if only the county and state are given
as the address of such person, no address need
be stated for such person in the motion.

App. 58
(2) Setting of Response Deadline; Hearing
Date. On receipt of the motion, the clerk shall set a
deadline by which any response to the motion must
be filed. The deadline shall be not less than 21 nor
more than 35 days after the filing of the motion. For
purposes of any statutory reference to the date of a
hearing under C.R.C.P. 120, the response deadline
set by the clerk shall be regarded as the scheduled
hearing date unless a later hearing date is set by
the court pursuant to section (c)(2) below.
(b) Notice of Response Deadline; Service of
Notice. The moving party shall issue a notice stating:
(1) a description of the deed of trust containing the
power of sale, the property sought to be sold at
foreclosure, and the facts asserted in the motion to
support the claim of a default;
(2) the right of any interested person to file and
serve a response as provided in section (c), including
the addresses at which such response must be filed
and served and the deadline set by the clerk for
filing a response;
(3) the following advisement: “If this case is not
filed in the county where your property or a
substantial part of your property is located, you
have the right to ask the court to move the case to
that county. If you file a response and the court sets
a hearing date, your request to move the case must
be filed with the court at least 7 days before the
date of the hearing unless the request was included
in your response.”; and

App. 59
(4) the mailing address of the moving party and, if
different, the name and address of any authorized
servicer for the loan secured by the deed of trust. If
the moving party or authorized servicer, if different,
is not authorized to modify the evidence of the debt,
the notice shall state in addition the name, mailing
address, and telephone number of a representative
authorized to address loss mitigation requests. A
copy of C.R.C.P. 120 shall be included with or
attached to the notice. The notice shall be served by
the moving party not less than 14 days prior to the
response deadline set by the clerk, by:
(A) mailing a true copy of the notice to each
person named in the motion (other than any
person for whom no address is stated) at that
person’s address or addresses stated in the
motion;
(B) filing a copy with the clerk for posting by the
clerk in the courthouse in which the motion is
pending; and
(C) if the property to be sold is a residential
property as defined by statute, by posting a true
copy of the notice in a conspicuous place on the
subject property as required by statute. Proof of
mailing and delivery of the notice to the clerk for
posting in the courthouse, and proof of posting of
the notice on the residential property, shall be
set forth in the certificate of the moving party or
moving party’s agent. For the purpose of this
section, posting by the clerk may be electronic on
the court’s public website so long as the

App. 60
electronic address for the posting is displayed
conspicuously at the courthouse.
(c) Response Stating Objection to Motion for
Order Authorizing Sale; Filing and Service.
(1) Any interested person who disputes, on grounds
within the scope of the hearing provided for in
section (d), the moving party’s right to an order
authorizing sale may file and serve a response to
the motion. The response must describe the facts
the respondent relies on in objecting to the issuance
of an order authorizing sale, and may include copies
of documents which support the respondent’s
position. The response shall be filed and served not
later than the response deadline set by the clerk.
The response shall include contact information for
the respondent including name, mailing address,
telephone number, and, if applicable, an e-mail
address. Service of the response on the moving
party shall be made in accordance with C.R.C.P.
5(b).
(2) If a response is filed stating grounds for
opposition to the motion within the scope of this
Rule as provided for in section (d), the court shall
set the matter for hearing at a later date. The clerk
shall clear available hearing dates with the parties
and counsel, if practical, and shall give notice to
counsel and any self-represented parties who have
appeared in the matter, in accordance with the
rules applicable to e-filing, no less than 14 days
prior to the new hearing date.

App. 61
(d) Scope of Issues at the Hearing; Order
Authorizing Foreclosure Sale; Effect of Order.
The court shall examine the motion and any responses.
(1) If the matter is set for hearing, the scope of
inquiry at the hearing shall not extend beyond
(A) the existence of a default authorizing
exercise of a power of sale under the terms of the
deed of trust described in the motion;
(B) consideration by the court of the
requirements of the Servicemembers Civil Relief
Act, 50 U.S.C. § 3931, as amended;
(C) whether the moving party is the real party
in interest; and
(D) whether the status of any request for a loan
modification agreement bars a foreclosure sale
as a matter of law.
The court shall determine whether there is a
reasonable probability that a default justifying the
sale has occurred, whether an order authorizing
sale is otherwise proper under the Servicemembers
Civil Relief Act, whether the moving party is the
real party in interest, and, if each of those matters
is determined in favor of the moving party, whether
evidence presented in support of defenses raised by
the respondent and within the scope of this Rule
prevents the court from finding that there is a
reasonable probability that the moving party is
entitled to an order authorizing a foreclosure sale.
The court shall grant or deny the motion in

App. 62
accordance with such determination. For good cause
shown, the court may continue a hearing.
(2) If no response has been filed by the response
deadline set by the clerk, and if the court is satisfied
that venue is proper and the moving party is
entitled to an order authorizing sale, the court shall
forthwith enter an order authorizing sale.
(3) Any order authorizing sale shall recite the date
the hearing was completed, if a hearing was held,
or, if no response was filed and no hearing was held,
shall recite the response deadline set by the clerk as
the date a hearing was scheduled, but that no
hearing occurred.
(4) An order granting or denying a motion filed
under this Rule shall not constitute an appealable
order or final judgment. The granting of a motion
authorizing a foreclosure shall be without prejudice
to the right of any person aggrieved to seek
injunctive or other relief in any court of competent
jurisdiction, and the denial of any such motion shall
be without prejudice to any other right or remedy of
the moving party.
(e) The court shall not require the appointment of an
attorney to represent any interested person as a
condition of granting such motion, unless it appears
from the motion or other papers filed with the court
that there is a reasonable probability that the
interested person is in the military service.
(f) Venue. For the purposes of this section, a consumer
obligation is any obligation

App. 63
(1) as to which the obligor is a natural person, and
(2) is incurred primarily for a personal, family, or
household purpose.
Any proceeding under this Rule involving a consumer
obligation shall be brought in and heard in the county
in which such consumer signed the obligation or in
which the property or a substantial part of the property
is located. Any proceeding under this Rule that does
not involve a consumer obligation or an instrument
securing a consumer obligation may be brought and
heard in any county. However, in any proceeding under
this Rule, if a response is timely filed, and if in the
response or in any other writing filed with the court,
the responding party requests a change of venue to the
county in which the encumbered property or a
substantial part thereof is situated, the court shall
order transfer of the proceeding to such county.
(g) Return of Sale. The court shall require a return of
sale to be made to the court. If it appears from the
return that the sale was conducted in conformity with
the order authorizing the sale, the court shall enter an
order approving the sale. This order is not appealable
and shall not have preclusive effect in any other action
or proceeding.
(h) Docket Fee. A docket fee in the amount specified
by law shall be paid by the person filing the motion.
Unless the court shall otherwise order, any person
filing a response to the motion shall pay, at the time of
the filing of such response, a docket fee in the amount
specified by law for a defendant or respondent in a civil
action under section 13-32-101(1)(d), C.R.S.

App. 64
COMMENTS
1989
[1] The 1989 amendment to C.R.C.P. 120 (Sales Under
Powers) is a composite of changes necessary to update
the Rule and make it more workable. The amendment
was developed by a special committee made up of
practitioners and judges having expertise in that area
of practice, with both creditor and debtor interests
represented.
[2] The changes are in three categories. There are
changes that permit court clerks to perform many of
the tasks that were previously required to be
accomplished by the Court and thus save valuable
Court time. There are changes to venue provisions of
the Rule for compliance with the Federal Fair Debt
Collection Practices Act. There are also a number of
editorial changes to improve the language of the Rule.
[3] There was considerable debate concerning whether
the Federal “Fair Debt Collection Practices Act” is
applicable to a C.R.C.P. 120 proceeding. Rather than
attempting to mandate compliance with that federal
statute by specific rule provision, the Committee
recommends that a person acting as a debt collector in
a matter covered by the provisions of the Federal “Fair
Debt Collection Practices Act” be aware of the potential
applicability of the Act and comply with it,
notwithstanding any provision of this Rule.

App. 65
Amended and Adopted by the Court, En Banc,
December 7, 2017, effective as stated.
By the Court:
Richard L. Gabriel
Justice, Colorado Supreme Court

App. 66

APPENDIX J
17th Judicial District
IMPORTANT CONSIDERATIONS BEFORE
FILING A RESPONSE TOA RULE 120 ACTION
There are only two defenses to a Rule 120 action:
1) The money is not due, or
2) the action is barred under the Service Member
Civil Relief Act
Timeline for filing a Response:
The Response must be filed with the court and served
on the Petitioner at least five days prior to the date set
for the Rule 120 hearing.
Response fee: $158.00
If you attempt to file a Response less than five days
prior to the hearing, the clerks are not permitted to
accept your Response.
PLEASE READ THE ATTACHED PAGES FOR MORE
SPECIFIC INFORMATION.
PLEASE NOTE: By law, the Court is not
permitted to give you legal advice. This
handout is intended to provide clarification
and guidance to pro se litigants. If you require
additional information, please contact an
attorney.

App. 67
17th Judicial District
Colorado Rule of Civil Procedure 120
(c) Response; Contents; Filing and Service. Any
interested person who disputes, on grounds within the
scope of the hearing provided for in section (d), the
moving party’s entitlement to an order authorizing sale
may file and serve a response to the motion, verified
by the oath of such person, setting forth the facts
upon which he relies and attaching copies of all
documents which support his position. The response
shall be filed and served not less than five days
prior to the date set for the hearing . . . .
(e) Hearing Dispensed with if no Response Filed.
If no response has been filed within the time
permitted by section (c), the court shall examine the
motion and, if satisfied that venue is proper and the
moving party is entitled to an order authorizing sale
upon the facts stated therein, the court shall
dispense with the hearing and forthwith enter an
order authorizing sale.
If you are scheduled to appear in court today and you
wish to file a Response today, please proceed upstairs
to courtroom 507.
If you are here to file your Response five or more days
prior to the date you are scheduled to appear in court,
please first consider the following:
1. Please be aware that under Rule 120 the Court’s
review is very limited. The Court is limited to
determining whether there is a reasonable

App. 68
probability of default and whether the Service
Member Civil Relief Act bars this action.
2. The Court can only consider a verified
response, in order to be verified, the response
must be “verified by oath” and notarized.
3. Are you, or anyone else on the mortgage,
currently in the military?
If yes, you may be protected under the
Service Member’s Civil Relief Act, and the
Court should be notified in a Response.
4. Are you working on a Loan Modification?
If so, the modifications are generally between
you and the bank/mortgage company, and
the Court cannot intervene unless the
modification is complete and has final
approval.
5. Have you filed for bankruptcy?
If so, consult your bankruptcy attorney, as
federal law may bar this proceeding from
going forward.
6. If you have filed a verified Response, and the filing
fee has been paid or has been waived, you should
plan to appear at the date and time set for your
hearing in Courtroom 507 unless otherwise notified
by the Court.

App. 69
Resources
Adams County Housing Authority
• 7190 Colorado Blvd. 6th Floor
Commerce City, CO 80022
• 303-227-2075
303-227-2098 fax
• http://www.adamscountyhousing.com/content/
achahome.aspx
Housingcounseling@achaco.com
• Counseling Services include Foreclosure
Intervention - Mediation assistance, money
management and budgeting, negotiating skills,
refinancing assistance, and loss mitigation options
for all types of mortgages including: FHA, VA,
Conventional, and sub-prime. Loss mitigation
efforts include: repayment plans, forbearance plans,
loan modifications, short-sale options and deed in
lieu of foreclosure.
Adams County Public Trustee
• 1000 Judicial Center Drive #200
Brighton, CO 80601
• 303-835-5700
303-835-5711 fax
• www.co.adams.co.us
• Intent to Cure
PLEASE NOTE: By law, the Court is not
permitted to give you legal advice. This handout
is intended to provide clarification and guidance
to pro se litigants. If you require additional
information, please contact an attorney.
updated 5/10

